     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
February 16, 2011                                                         26 Federal Plaza, Room 3900
                                                                          New York, NY 10278



Report Number: A-02-10-01019

Mr. Ricardo Rivera
President
Cooperativa de Seguros de Vida de Puerto Rico
400 Avenida Américo Miranda
Esq. Expreso Las Américas
Rio Piedras, PR 00926

Dear Mr. Rivera:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Cooperativa de Seguros de Vida de Puerto Rico’s
Final Administrative Cost Proposal for Fiscal Year 2009. We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Glenn H. Richter, Audit Manager, at (518) 437-9390, extension 227, or through email at
Glenn.Richter@oig.hhs.gov. Please refer to report number A-02-10-01019 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Ricardo Rivera


Direct Reply to HHS Action Official:

Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  AUDIT OF COOPERATIVA DE
 SEGUROS DE VIDA DE PUERTO
 RICO’S FINAL ADMINISTRATIVE
  COST PROPOSAL FOR FISCAL
          YEAR 2009




                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-02-10-01019
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare and Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries that process and pay Medicare claims. Contracts between
CMS and the Medicare contractors define the functions to be performed and provide for the
reimbursement of allowable administrative costs incurred in the processing of Medicare claims.

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contract.
Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

Prior to February 28, 2009, CMS contracted with Cooperativa de Seguros de Vida de Puerto
Rico (COSVI) to serve as the Part A fiscal intermediary for the Commonwealth of Puerto Rico
and the United States Virgin Islands. Pursuant to section 911 of the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003, P.L. No. 108-173, CMS replaced its Part A fiscal
intermediaries with new contract entities called Medicare Administrative Contractors (MAC).
CMS did not award COSVI a MAC contract. As a result, CMS terminated its Part A fiscal
intermediary contract with COSVI, effective February 28, 2009.

In its cost proposal for the 5-month period ending February 28, 2009, COSVI reported Medicare
Part A administrative costs totaling $1,566,164.

OBJECTIVES

Our objectives were to determine whether (1) the COSVI cost proposal fairly presented program
administration costs and (2) the costs were reasonable, allowable, and allocable in accordance
with the FAR and the Medicare contract.

SUMMARY OF FINDINGS

COSVI’s reported expenditures in its cost proposal substantially complied with the FAR and the
Medicare contract. However, COSVI overstated its cost proposal by $5,680. Specifically,
COSVI reported unallocable annual meeting and insurance costs ($3,946) and unsupported
salary costs ($1,734) to the Medicare program.

RECOMMENDATION

We recommend that COSVI decrease its cost proposal by $5,680 to reflect the unallowable
administrative costs.



                                               i
COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, COSVI concurred with our recommendation. COSVI’s
comments appear in their entirety as Appendix D.




                                            ii
                                                   TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION................................................................................................................. 1

          BACKGROUND ........................................................................................................ 1

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................... 1
               Objectives ....................................................................................................... 1
               Scope ............................................................................................................... 1
               Methodology ................................................................................................... 2

FINDINGS AND RECOMMENDATION.......................................................................... 3

          UNALLOCABLE COSTS ......................................................................................... 3
            Annual Meeting .................................................................................................... 3
            Insurance ............................................................................................................... 3

          UNSUPPORTED COSTS .......................................................................................... 3
            Salaries .................................................................................................................. 3

          RECOMMENDATION .............................................................................................. 4

          COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO
          COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ................ 4

APPENDIXES

          A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST PROPOSAL
              BY COST CLASSIFICATION

          B: OFFICE OF INSPECTOR GENERAL RECOMMENDED COST
               ADJUSTMENTS

          C: COMPARISON OF ADMINISTRATIVE COSTS REPORTED TO BUDGET
               AUTHORIZATION

          D: COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS




                                                                      iii
                                             INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare Program. The Centers for
Medicare and Medicaid Services (CMS) administers the Medicare program through contractors,
including Part A fiscal intermediaries that process and pay Medicare claims. Contracts between
CMS and the Medicare contractors define the functions to be performed and provide for the
reimbursement of allowable administrative costs incurred in the processing of Medicare claims.

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contract.
Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (cost proposal), which reports the Medicare administrative costs incurred during
the year. The cost proposal and supporting data provide the basis for the CMS contracting
officer and contractor to negotiate a final settlement of allowable administrative costs.

Prior to February 28, 2009, CMS contracted with Cooperativa de Seguros de Vida de Puerto
Rico (COSVI) to serve as the Part A fiscal intermediary for the Commonwealth of Puerto Rico
and the United States Virgin Islands. Pursuant to section 911 of the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003, P.L. No. 108-173, CMS replaced its Part A fiscal
intermediaries with new contract entities called Medicare Administrative Contractors (MAC).
CMS did not award COSVI a MAC contract. As a result, CMS terminated its Part A fiscal
intermediary contract with COSVI, effective February 28, 2009.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the COSVI cost proposal fairly presented program
administration costs and (2) the costs were reasonable, allowable, and allocable in accordance
with the FAR and the Medicare contract.

Scope

Our review covered the period October 1, 2008, through February 28, 2009. For this 5-month
period, COSVI reported Medicare Part A administrative costs totaling $1,566,164. These costs
included pension costs of $40,776 that we excluded from this review because they will be the
subject of a separate audit. 1 COSVI did not report any forward-funding costs in its cost proposal
for this period. We reviewed only those internal controls necessary to achieve our audit
objectives.



1
 We will also be issuing a separate report (A-02-10-01028) on costs submitted by COSVI related to the termination
of the Medicare contract.


                                                        1
We conducted our fieldwork at COSVI’s offices in San Juan, Puerto Rico, from February
through July 2010.

Methodology

To accomplish our objectives, we

   •   reviewed applicable Medicare laws, regulations, and guidelines;

   •   reviewed the applicable sections of the FAR and COSVI’s contract with CMS;

   •   reviewed COSVI’s independent auditor’s reports and letters related to internal controls
       for COSVI for calendar year 2008;

   •   reconciled expenses on the cost proposal and cost classification report to COSVI’s
       accounting records;

   •   tested costs for reasonableness, allowability, and allocability;

   •   selected and reviewed a judgmental sample of journal entries, invoices, expense vouchers
       and reports, contracts and agreements, and additional supporting documentation;

   •   interviewed COSVI officials regarding their costs accumulation processes for cost
       proposals and cost allocation systems;

   •   reviewed payroll journals, corporate bonus plans, and personnel records; and

   •   selected a judgmental sample of 15 individual employees and verified that the amount
       paid to each employee was in accordance with the employee’s pay rate, the employee’s
       salary was charged to the correct cost center, and the number of hours paid to the
       employee agreed with the employee’s earning statements.

In addition, for each of the five highest paid COSVI executives who had salaries allocated to
Medicare, we:

   •   reviewed total compensation payout data and supporting documentation;

   •   compared executive compensation costs to benchmark amounts published in the Federal
       Register; and

   •   applied the Medicare allocation percentage to each executive’s total compensation, up to
       the benchmark amount, to determine the allowable executive compensation amount.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


                                                 2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATION

COSVI’s reported expenditures in its cost proposal substantially complied with the FAR and the
Medicare contract. However, COSVI overstated its cost proposal by $5,680. Specifically,
COSVI reported unallocable annual meeting and insurance costs ($3,946) and unsupported
salary costs ($1,734).

UNALLOCABLE COSTS

Annual Meeting

Pursuant to section 31.201-4 of the FAR, “a cost is allocable if it is assignable or chargeable to
one or more cost objectives on the basis of relative benefits received or other equitable
relationship.”

COSVI improperly reported annual meeting costs totaling $3,152 in its cost proposal.
Specifically, COSVI reported annual meeting costs (using an estimated monthly charge) for the
12-month period October 1, 2008, through September 30, 2009. 2 However, COSVI’s Medicare
contract was terminated effective February 28, 2009; therefore, COSVI should have reported
only 5 months of annual meeting costs.

Insurance

Pursuant to section 31.201-4 of the FAR, “a cost is allocable if it is assignable or chargeable to
one or more cost objectives on the basis of relative benefits received or other equitable
relationship.”

COSVI improperly reported insurance costs totaling $794 in its cost proposal. Specifically,
COSVI reported insurance costs incurred during the 9-month period January 1, 2009, through
September 30, 2009. However, COSVI’s Medicare contract was terminated effective
February 28, 2009; therefore, COSVI should have reported only 2 months of insurance costs.

UNSUPPORTED COSTS

Salaries

Pursuant to section 31.201-2(d) of the FAR, COSVI is responsible for “… maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles.” COSVI
reported salary costs totaling $1,734 in its cost proposal that were not supported by
documentation.

2
 COSVI used the cost of the previous year’s annual meeting to estimate and allocate a monthly charge for the
June 2009 annual meeting.


                                                        3
RECOMMENDATION

We recommend that COSVI decrease its cost proposal by $5,680 to reflect the unallowable
administrative costs.

COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, COSVI concurred with our recommendation. COSVI’s
comments appear in their entirety as Appendix D.




                                             4
APPENDIXES
      APPENDIX A: COSTS REPORTED ON FINAL ADMINISTRATIVE COST
                  PROPOSAL BY COST CLASSIFICATION

                                                               Total Claimed
                             Cost Category
                                                                   Costs
  Salaries/Wages                                                    $ 809,802
  Fringe Benefits                                                       83,257
  Facilities or Occupancy                                             112,425
  Subcontractors                                                      112,584
  Outside Professional Services                                       344,728
  Telephone and Telegraph                                               18,848
  Postage and Express                                                    6,332
  Furniture and Equipment                                               38,278
  Materials and Supplies                                                 9,730
  Travel                                                                 8,550
  Return on Investment                                                   9,474
  Miscellaneous                                                         20,040
  Credits                                                              (7,884)
  Total Costs Reported on Final Administrative Cost Proposal       $1,566,164
  OIG Recommended Adjustments*                                         (5,680)
  Total Adjusted Costs                                             $1,560,484

* See Appendix B
     APPENDIX B: OFFICE OF INSPECTOR GENERAL
         RECOMMENDED COST ADJUSTMENTS


                                    Total Part A
             Finding Category
                                    Adjustments
Unallocable Annual Meeting                    $3,152
Unallocable Insurance Costs                        794
Unsupported Salary Costs                       1,734
Total OIG Recommended Adjustments             $5,680
                APPENDIX C: COMPARISON OF ADMINISTRATIVE COSTS
                      REPORTED TO BUDGET AUTHORIZATION




                                           Budget             Administrative     Variance Favorable
             Operation
                                         Authorization        Costs Reported       (Unfavorable)


Program Management
Bills/Claims Payment                          $ 191,500             $ 246,872             $(55,372)
Appeals/Reviews                                   80,000                76,708                3,292
Beneficiary Inquiries                              4,400                 4,072                  328
Reimbursement                                     81,400                79,277                2,123
Provider Enrollment                               34,000                22,253               11,747
Provider Inquires                                109,400                77,355               32,045
Provider Outreach & Education                     41,300                29,710               11,590
Credits                                         (12,600)               (7,884)              (4,716)
                Subtotal                      $ 529,400             $ 528,363              $ 1,037
Medicare Integrity Program
Medical Review                                $ 173,400             $ 173,972              $    (572)
MSP- Prepayment                                   14,600                12,759                  1,841
Benefits Integrity                                 7,500                15,842                (8,342)
MIP Provider Outreach and Education               50,400                67,328              (16,928)
Audit                                            444,400               343,354               101,046
MSP Post payment                                   4,300                 2,815                  1,485
                Subtotal                      $ 694,600             $ 616,070              $ 78,530
Non-Renewal                                   $ 641,144             $ 421,731              $219,413
Totals                                        $1,865,144            $1,566,164             $298,980

Notes: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 00) and
Notification of Budget Approval (Supplement No. 07).
APPENDIX D: COOPERATIVA DE SEGUROS DE VIDA
         DE PUERTO RICO COMMENTS
